The Honorable Patrick P. O’Carroll, Jr.
Inspector General
Social Security Administration
6401 Security Boulevard, Suite 300
Baltimore, Maryland 21235


Dear Mr. O’Carroll:

We reviewed the system of quality control in effect for a year ending March 31, 2012, for the audit
of the Social Security Administration, Office of the Inspector General (SSA OIG). A system of
quality control encompasses the SSA OIG’s organizational structure and the policies adopted as
well as the procedures established to provide a reasonable assurance it is conforming to the
elements of quality control described in Government Auditing Standards, December 2011 Revision
(GAS). The SSA OIG is responsible for designing a system of quality control and compliance to
provide reasonable assurance it is performing and reporting in conformity with applicable
professional standards in all material respects. Our responsibility is to express an opinion on the
design of the system of quality control and SSA OIG’s compliance regarding that system based on
our review.

We conducted our review in accordance with GAS and guidelines established by the Council of
the Inspectors General on Integrity and Efficiency (CIGIE). During our review, we interviewed
SSA OIG personnel and obtained an understanding of the nature of the SSA OIG audit
organization and the design of the SSA OIG’s system of quality control sufficient to assess the
risks implicit in its audit function. Based on our assessments, we selected engagements and
administrative files to test for conformity with professional standards and compliance with the
SSA OIG’s system of quality control. The engagements selected represented a reasonable
cross-section of the SSA OIG’s audit organization with an emphasis on higher-risk engagements.
Prior to concluding the review, we reassessed the adequacy of the scope of the peer review
procedures and met with SSA OIG management to discuss our results. We believe the procedures
performed provided a reasonable basis for our opinion.

In performing our review, we obtained an understanding of the system of quality control for the
SSA OIG’s audit organization. In addition, we tested compliance with the SSA OIG’s quality
control policies and procedures to the extent considered appropriate. These tests covered the
application of the SSA OIG’s policies and procedures on selected engagements. We based our
review on selected tests; therefore, it would not necessarily detect all weaknesses in the system of
quality control or all instances of noncompliance with it.
Inherent limitations exist within effectiveness assessments of any system of quality control;
therefore, noncompliance with a system of quality control may occur and not be detected.
Projection of any evaluation of a system of quality control to future periods is subject to the risk
that the system may become inadequate because of changes in conditions or because the degree of
compliance with the policies or procedures may deteriorate.

In our opinion, the SSA OIG system for audit quality control in effect for a year ending
March 31, 2012, has been suitably designed. The degree of compliance with this system provides
the SSA OIG with reasonable assurance of performing and reporting in conformity with applicable
professional standards in all material respects. Federal audit organizations can receive a rating of
pass, pass with deficiencies, or fail. We determined that the SSA OIG earned a peer review rating
of pass.

In addition to reviewing its system of quality control to ensure adherence to the GAS, we applied
certain limited procedures in accordance with CIGIE guidance. This guidance related to the SSA
OIG’s monitoring of engagements performed by Independent Public Accountants (IPA) under
contract where the IPA served as the principal auditor. Monitoring of engagements performed by
IPAs does not constitute an audit and is not subject to the requirements of GAS. Although our
limited procedures determined whether the SSA OIG had controls to ensure IPAs performed
contracted work in accordance with professional standards, our objective was not to express an
opinion, and accordingly, we did not express an opinion on the SSA OIG’s monitoring of work
performed by IPAs.

Enclosure I of this report identifies the offices of the SSA OIG we visited and the engagements
reviewed. Enclosure II provides the SSA OIG Office of Audit’s response to the draft report. We
appreciated the cooperation and courtesies extended to us by members of your staff during the
conduct of this review.

Sincerely,




GEORGE J. OPFER



Enclosures (2)




                                                  2

Enclosure I

                              SCOPE AND METHODOLOGY

We tested compliance with the SSA OIG audit organization’s system of quality control to the
extent we considered appropriate. These tests included a review of 10 of 66 audit reports issued
during the period April 1, 2011, through March 31, 2012, and semiannual reporting periods of
April 1, 2011, through September 30, 2011, and October 1, 2011, through March 31, 2012. The
SSA OIG did not issue any attestation reports during this period. We also assessed the internal
quality control performed by the SSA OIG for the reports we reviewed.

Two of the 10 reports we reviewed were performed by IPAs. We reviewed the SSA OIG’s
monitoring of these engagements where the IPA served as the principal auditor during the period
April 1, 2011, through March 31, 2012. During this period, the SSA OIG contracted for the
audit of its agency’s Fiscal Year 2011 financial statements, along with the Fiscal Year
2011 Evaluation of the Social Security Administration’s Compliance with the Federal
Information Security Management Act of 2002 audit.

We visited the Baltimore, MD; Boston, MA; and Crystal City, VA offices of the SSA OIG. We
also administered a survey to the SSA OIG employees who charged hours on the selected
projects. We had a 100 percent response rate.




                                               3

SSA OIG Performance Audits Reviewed

Table 1 identifies the eight SSA OIG audits performed by the SSA OIG’s Boston, Chicago, San
Francisco, New York, and Evaluations Audit Divisions that we reviewed.

                           Table 1. SSA OIG Performance Audits
SSA OIG Audit
                     Report No.       Report Date                       Report Title
   Division
                                                        Administrative Costs Claimed by the Maine
     Boston         A-01-11-11109      10/12/2011
                                                        Disability Determination Services
                                                        Unnecessary Medical Determinations for
     Boston         A-01-10-20120      02/21/2012       Supplemental Security Income Disability
                                                        Claims
                                                        Congressional Response Report: The Office of
    Chicago         A-12-11-21192      06/29/2011       Disability Adjudication and Review’s
                                                        Hearings Backlog and Processing Times
                                                        Training of New Administrative Law Judges
    Chicago         A-12-11-11126      10/13/2011       at the Office of Disability Adjudication and
                                                        Review
                                                        Spousal Beneficiaries Who Reported They
  San Francisco     A-09-10-21071      03/21/2012
                                                        Were Entitled to a Government Pension
                                                        Aged Beneficiaries Whose Benefits Have Been
  San Francisco     A-09-09-29117      06/17/2011       Suspended for Address or Whereabouts
                                                        Unknown
                                                        Supplemental Security Income Recipients with
   New York         A-02-09-29025      06/1/2011
                                                        Unreported Real Property
                                     Not Applicable
                                                        Accuracy of Special Disability Workload
   Evaluations      A-13-11-11123      (Canceled
                                                        Payments
                                         Audit)

SSA OIG Contractor Monitoring Files Reviewed

Table 2 identifies the two audits performed by IPAs for which we reviewed the SSA OIG’s
monitoring activities.

                  Table 2. SSA OIG Monitoring Files for Contracted Audits
                     Report No.     Report Date                       Report Title
                                                      Fiscal Year 2011 Financial Statement Audit
    Financial       A-15-11-11177     11/7/2011
                                                      Oversight
                                                      Fiscal Year 2011 Evaluation of the Social
   Information                                        Security Administration’s Compliance with the
                    A-14-11-01134    11/14/2011
   Technology                                         Federal Information Security Management Act of
                                                      2002



                                             4

Enclosure II




               5

